KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

September 21, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Planned Parenthood Center for Choice, et al. v. Greg Abbott, Governor
of Texas, et al., No. 20-305

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4 and the Court’s Order of March 19,
2020, Respondents Greg Abbott, Governor of Texas; Ken Paxton, Attorney General
of Texas; Phil Wilson, Acting Executive Commissioner of the Texas Health and
Human Services Commission; Stephen Brint Carlton, Executive Director of the
Texas Medical Board; and Katherine A. Thomas, Executive Director of the Texas
Board of Nursing, in their official capacities, respectfully move for an extension of
the time for filing their response to the petition for a writ of certiorari in this matter.
Petitioners filed their petition for a writ of certiorari on September 3, 2020. It was
docketed on September 9, creating a deadline for Respondents’ brief in response of
October 9, 2020. Respondents request a 30-day extension of that deadline, creating
a new filing date of November 9, 2020. 1
My staff reached out to counsel for Petitioners via telephone and email to ask for
their position on this motion. As of the time of this filing, we have not received a
response.
1

Thirty days from October 9 is November 8, which is a Sunday; thus, the operative deadline
would be Monday, November 9.
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Page 2
The extension is necessary because lead counsel for Respondents has had
numerous briefing and argument obligations since Petitioners filed their petition for
certiorari on September 3. Lead counsel’s caseload has significantly increased due to
COVID-19-related litigation involving the State of Texas and its officials and, more
recently, multiple emergency election-law matters that have required expedited
briefing and argument. Lead counsel’s obligations include:
• Richardson v. Hughs, No. 20-50774 (5th Cir.) (emergency stay motion filed
September 11, 2020)
• Lewis v. Hughs, No. 20-50654 (5th Cir.) (motion to file en banc reply filed
September 18, 2020)
• Texas Democratic Party v. Hughs, No. 20-50683 (5th Cir.) (response to
emergency motion to summarily affirm filed September 18, 2020)
• State of Texas v. Hollins, No. 20-0729 (Tex.) (emergency briefing due
September 22 & 28, 2020; oral argument September 30, 2020)
• Texas v. New Mexico, Orig. 65 (U.S.) (oral argument October 5, 2020)
• In re Brown, 19-0877 (Tex.) (oral argument October 29, 2020)
• California v. Texas, No. 18-840 (U.S.) (oral argument November 10, 2020)
For the foregoing reasons, Respondents respectfully request a 30-day extension
of the deadline to file their response to the petition for a writ of certiorari, creating a
new deadline of November 9, 2020.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Julie A. Murray (via e-mail)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

